                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: Al2050031                                                                           Page 1 of 1



                  During a proactive review of recent awards, 1 NSF OIG identified a proposal 2 that contained
          copied text that was not appropriately cited. Some of the text lacking citations was identified as the
          PI's own work, and while the remaining copied text was not adequately distinguished from the PI's
          original text, the sources for the copied text were included in the proposal body and references. Thus,
          NSF OIG determined the PI' s3 actions did not rise to the level of research misconduct. PI was sent a
          questionable research practice letter reminding him to carefully and fully cite and distinguish all
          source materials. Accordingly, this case is closed.




NS F 0 1G Form 2 (11/02)
